           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     SUNSHINE PAYEE CORPORATION,
           A FEE-FOR-SERVICE
         REPRESENTATIVE PAYEE
                FOR THE
    SOCIAL SECURITY ADMINISTRATION

     February 2010   A-08-09-29106




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
M EM ORANDUM

Date:      February 5, 2010                                                            Refer To:

To:        Paul D. Barnes
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Sunshine Payee Corporation, a Fee-for-Service Representative Payee for the Social
           Security Administration (A-08-09-29106)


           OBJECTIVE
           Our objectives were to determine whether Sunshine Payee Corporation (Sunshine)
           (1) had effective safeguards over the receipt and disbursement of Social Security
           benefits; and (2) ensured Social Security benefits were used and accounted for in
           accordance with the Social Security Administration's (SSA) policies and procedures.

           BACKGROUND
           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries'
           payments. 1 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
           beneficiaries or Supplemental Security Income (SSI) recipients when representative
           payments would serve the individuals' interests. Representative payees are
                                              2
           responsible for managing benefits in the beneficiary’s best interest. Refer to
           Appendix B for specific representative payee responsibilities.

           Since 2003, Sunshine has operated under the current owners as a fee-for-service
           (FFS) representative payee for individuals who receive payments under SSA's OASDI
           and SSI programs. The Atlanta Region considers Sunshine to be a representative
           payee of last resort, meaning many of the beneficiaries it manages are adults who do
           not have family members or friends available or willing to represent them. Moreover,
           many of the beneficiaries have mental disorders, have substance abuse problems, or
           are homeless and transient.

           1
               The Social Security Act §§ 205(j) and 1631(a)(2), 42 U.S.C §§ 405(j) and 1383(a)(2).
           2
               We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 - Paul D. Barnes

During our audit period, January 1 to December 31, 2008, Sunshine served as
representative payee for about 1,639 (active and terminated) Social Security
beneficiaries. Sunshine currently has only four employees.

We performed audit tests on 100 randomly selected beneficiaries to determine whether
Sunshine properly managed their benefits. See Appendix C for our complete Scope
and Methodology.

RESULTS OF REVIEW
Sunshine generally (1) had effective safeguards over the receipt and disbursement of
Social Security benefits and (2) ensured Social Security benefit payments were used
and accounted for properly. However, Sunshine did not always comply with SSA’s
policies and procedures. We identified the following areas where Sunshine needed to
improve its performance as a representative payee.

•   Sunshine did not reconcile bank statement balances with its beneficiaries' ledger
    balances.
•   Sunshine did not obtain sufficient bond coverage for loss or theft of beneficiary
    funds.
•   Sunshine did not identify the fiduciary relationship between the payee and the
    beneficiaries in its bank account title.
•   Sunshine charged $342 in fees for months when no benefits were payable.

No Reconciliation of Bank Records to Beneficiary Ledgers

Sunshine did not reconcile its bank statement balances to individual beneficiary ledger
balances. Without such reconciliations, Sunshine could not ensure it was complying
with SSA's regulation requiring that representative payees maintain accurate and
complete records for the Social Security benefits they manage. 3 To test the accuracy
of its records, we requested that Sunshine perform a reconciliation for 1 month in the
audit period. Sunshine reconciled its October 2008 bank statement and found the bank
account contained approximately $38,974 more than the total recorded in its beneficiary
ledgers. 4 According to Sunshine, the variance was likely due to uncashed checks.

SSA policy allows a representative payee to commingle Social Security benefits in a
bank account as long as the payee maintains a separate ledger account for each


3
 20 C.F.R. §§ 404.2065 and 416.665. See also SSA, Guide for Organizational Representative
Payees - Developing a Representative Payee Accounting System.
4
 The reconciliation produced an adjusted bank account balance of $2,205,825 and an adjusted
beneficiary ledger balance of $2,166,851 resulting in a difference of $38,974.
Page 3 - Paul D. Barnes

beneficiary. 5 Accordingly, Sunshine maintained a separate ledger account for each
beneficiary. However, Sunshine acknowledged that neither its current nor its previous
owners had performed reconciliations.

We believe the lack of reconciliations contributed to the $38,974 variance between the
bank’s and Sunshine’s records. Because Sunshine had not performed reconciliations
for years before our audit, we could not conclusively determine what caused the
variance or when the differences occurred. Although we did not identify instances
where Sunshine inaccurately recorded receipts or disbursements, we are concerned
the $38,974 represents funds that may belong to current and former Sunshine
beneficiaries.

Additionally, we are concerned that some beneficiaries may be ineligible for the
payments SSA is sending them. Many of Sunshine’s beneficiaries receive SSI and are
subject to resource limits, including limits on the amount of conserved funds they may
accumulate. Because the $38,974 likely consists of funds that belong to beneficiaries,
there could be instances where SSA continues to issue SSI to recipients who are not
due payments, as their conserved funds exceed SSA’s resource limits.

Both SSA and Sunshine are responsible for ensuring benefits paid to beneficiaries are
accounted for properly. Accordingly, we believe SSA should work with Sunshine to
reconcile the bank statement balances to the beneficiaries' current general ledger
balances and resolve any resulting differences. Once Sunshine balances the accounts,
SSA should ensure Sunshine routinely reconciles them.

Insufficient Bond Coverage

Sunshine did not obtain a bond with the coverage required by SSA. The Agency
requires that nongovernmental FFS organizations have a bond or insurance policy that
is sufficient to compensate the organization or SSA for any loss of SSA client benefits
and conserved funds. Therefore, the minimum amount of bonding or insurance
coverage must equal the amount of the beneficiaries’ conserved funds on hand plus the
average monthly amount of Social Security payments the organization received. FFS
organizations must maintain coverage for at least the minimum amount described
above to be authorized by SSA to collect a fee. 6 SSA has procedures in place to
revoke FFS status when a payee no longer meets all criteria for receiving fees. 7
However, SSA policy does not provide guidance as to whether a payee should be
allowed to retain fees it collected in months when its bond was insufficient.



5
  SSA, Program Operations Manual System (POMS), GN 00603.020.A and B.1.e. See also SSA, Guide
for Organizational Representative Payees – Managing and Conserving Funds.
6
    SSA, POMS, GN 00506.105.A, B and C.5.
7
    SSA, POMS, GN 00506.400
Page 4 - Paul D. Barnes

From January 1 through December 31, 2008, Sunshine was bonded for
$100,000. However, in a December 2007 review, SSA determined that Sunshine
should be bonded for a minimum of $1.1 million. 8 According to an SSA representative,
Sunshine made a good-faith effort to secure a bond in the amount required by the
Agency. However, Sunshine told us the bond issuer would not provide a bond in the
amount required by SSA unless Sunshine had assets of $5 million or more. Because
Sunshine’s assets were considerably less than this amount, it could not obtain a bond
for more than $100,000.

We determined that, in 2008, Sunshine collected $26,887 in fees from the
100 beneficiaries in our sample. Given the amount of fees Sunshine collected for those
in the sample, we estimate it collected about $440,680 for the 1,639 beneficiaries it
served in 2008 (see Appendix D). Although SSA was aware that Sunshine’s bond did
not comply with Agency policy, it allowed Sunshine to continue collecting fees. We
acknowledge that Sunshine performed services during the audit period. However, had
SSA complied with its own policy, it would not have authorized Sunshine to collect the
$440,680.

Additionally, in June 2007, SSA began requiring that the bond or insurance policy
include misuse and embezzlement as well as loss of, or damage to, money, securities,
or property from theft by an employee of the organization or the corporate officer/
owner(s). The bonding/insurance contract also must show that SSA is named as an
                                                          9
insured party and guaranteed payment as the “loss party.” Sunshine could not
establish that its bond met these requirements.

Because Sunshine’s bond did not meet the Agency’s requirements, Sunshine and SSA
did not have adequate protection from loss or theft of beneficiary funds. As such, we
believe SSA must take the necessary steps to ensure that Sunshine secures a bond
and/or insurance policy to fully protect beneficiary funds. If Sunshine cannot obtain a
bond in the amount specified by SSA, we believe the Agency should consider reducing
the number of beneficiaries Sunshine can serve or initiate steps to revoke Sunshine’s
authorization to collect fees. Additionally, we believe Atlanta Regional Office staff
should work with Central Office staff to specify the steps SSA should take when FFS
representative payees do not secure the appropriate bond, but continue to collect fees.
That is, SSA’s policy should specify whether FFS representative payees should be
required to refund fees collected when they do not secure the required bond.




8
 SSA based the $1.1 million on an average of $600,000 in monthly Social Security payments plus
$500,000 in conserved funds.
9
    SSA, AM-07084, Bonding Requirements for Non-Governmental Fee For Service (FFS) Organizations.
Page 5 - Paul D. Barnes

Improper Bank Account Title

Beneficiary funds may have been at risk because Sunshine’s collective checking
account did not have a proper title. According to SSA policy, the Federal Deposit
Insurance Corporation (FDIC) provides coverage up to $250,000 per depositor in
collective bank accounts when properly titled to show the fiduciary relationship between
                                   10
the account holder and its clients. However, the checking account title used by
Sunshine, Sunshine Financial Services Group Inc., Community Account I, Social
Security Beneficiary, did not specifically identify the fiduciary relationship between
Sunshine and SSA beneficiaries. Because Sunshine’s collective checking account had
an average balance of over $2 million from April through December 2008, significant
funds may have been at risk.

In today’s banking environment, it is particularly crucial that Sunshine protect
beneficiary funds from bank failure. Accordingly, we believe SSA should direct
Sunshine to modify the title of its checking account to a title that specifically identifies
the fiduciary relationship between it and its beneficiaries, such as Sunshine Financial
Services Group Inc., Representative Payee for Social Security Beneficiaries. 11

Excessive Fees

Sunshine charged excessive fees totaling $342 to 4 of the 100 beneficiaries in our
sample. In these instances, Sunshine charged fees for months in which no benefits
were due. Sunshine collected the fees because it provided services in months after
benefits stopped. However, SSA policy prohibits payees from collecting fees in months
where no payment is due a beneficiary, even if the payee continues to pay the
                    12
beneficiary’s bills. Sunshine promptly refunded the $342 after SSA explained why it
was not due the fees.

CONCLUSION AND RECOMMENDATIONS

Sunshine generally (1) had effective safeguards over the receipt and disbursement of
Social Security benefits; and (2) ensured Social Security benefit payments were used
and accounted for properly. However, Sunshine did not always comply with SSA’s
policies and procedures. We believe Sunshine should take additional steps to
strengthen its procedures to better protect beneficiary funds. Accordingly, we
recommend that SSA’s Atlanta Regional Office:

1. Work with Sunshine to reconcile its bank statement balances to the beneficiaries'
   general ledger balances and resolve any resulting differences.

10
     SSA, POMS, GN 00603.020.A and B.
11
     SSA, POMS, GN 00603.020.B.1.a.
12
  SSA, POMS, GN 00506.220.A and B.3. See also SSA, Fee For Service Fact Sheet – When an
Authorized FFS Payee Cannot Collect a Fee.
Page 6 - Paul D. Barnes

2. Ensure Sunshine secures a bond and/or insurance policy that fully protects
   beneficiary funds. If Sunshine cannot obtain a bond that meets Agency
   requirements, consider reducing the number of beneficiaries Sunshine can serve or
   initiate steps to revoke Sunshine’s authorization to collect fees.

3. Work with SSA Central Office staff to clarify steps the Agency should take when
   FFS representative payees do not secure the appropriate bond but continue to
   collect fees. That is, SSA’s policy should specify whether FFS representative
   payees should be required to refund fees collected when they do not secure the
   required bond.

4. Direct Sunshine to modify its collective account title to specifically identify the
   fiduciary relationship between it and the beneficiaries.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS

SSA and Sunshine generally agreed with our recommendations. See Appendix E for
the full text of SSA’s comments and Appendix F for the full text of Sunshine’s
comments.

OTHER MATTERS

Although SSA policies and guidelines do not provide a recommended ratio between
staff and beneficiaries for representative payees, we are concerned that Sunshine may
not have sufficient staff to ensure beneficiary needs are met. Although our limited
review did not identify instances where beneficiaries’ living arrangements were
inadequate or where Sunshine did not meet beneficiaries’ needs, we are concerned
that Sunshine cannot ensure the well-being of all its beneficiaries at its current staffing
level. At the time of our audit, Sunshine had 4 employees to represent more than
1,100 beneficiaries. We understand that many of Sunshine’s beneficiaries live in group
homes or are assisted by case workers from local agencies, such as mental health
organizations. Sunshine can determine whether these beneficiaries’ needs are being
met. However, because Sunshine does not perform home visits, we are concerned that
some of Sunshine’s remaining beneficiaries may have no one helping ensure they have
sufficient food, clothing, and shelter.

In our September 2008 report, Help Group Services, Inc., a Fee-for-Service
Representative Payee for the Social Security Administration (A-04-08-28040), we
suggested that SSA consider developing a policy that establishes a method for
determining the number of beneficiaries who can be assigned to an FFS representative
payee. For example, SSA could develop guidelines that establish a representative
payee staff-to-beneficiary ratio. Such a ratio would help ensure that a representative
Page 7 - Paul D. Barnes

payee has adequate staff to regularly visit beneficiaries and determine whether their
basic living needs are being met. We continue to believe SSA should consider
developing such a policy.




                                               Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Sample Results

APPENDIX E – Agency Comments

APPENDIX F – Representative Payee Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
FDIC       Federal Deposit Insurance Corporation
FFS        Fee-for-Service
OASDI      Old-Age, Survivors and Disability Insurance
OIG        Office of the Inspector General
POMS       Program Operations Manual System
RPS        Representative Payee System
SSA        Social Security Administration
SSI        Supplemental Security Income
Sunshine   Sunshine Payee Corporation
U.S.C.     United States Code
                                                                             Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary's best
interests. The responsibilities include: 1

•   Determine the beneficiary's current needs for day-to-day living and use his or her
    payments to meet those needs.

•   Conserve and invest benefits not needed to meet the beneficiary's current needs.

•   Maintain accounting records of how the benefits are received and used.

•   Report events to the Social Security Administration (SSA) that may affect the
    individual's entitlement or benefit payment amount.

•   Report any changes in circumstances that would affect their performance as a
    representative payee.

•   Provide SSA an annual Representative Payee Report to account for benefits spent
    and invested.

•   Return any payments to SSA for which the beneficiary is not entitled.

•   Return conserved funds to SSA when no longer the representative payee for the
    beneficiary.

Ensure Supplemental Security Income recipients do not exceed their resource limits, be
aware of any other income they may have and monitor their conserved funds.




1
 20 C.F.R. §§ 404.2035 and 416.635. See also SSA, Guide for Organizational Representative
Payees - Developing a Representative Payee Accounting System and What are Your Duties as a
Representative Payee?
                                                                      Appendix C

Scope and Methodology
Our audit covered the period January 1 through December 31, 2008. To accomplish
our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Queried SSA's Representative Payee System (RPS) for a list of individuals who
    were in the care of Sunshine Payee Corporation (Sunshine) as of
    December 31, 2008 or who left Sunshine’s care before January 1, 2009.

•   Obtained from Sunshine a list of individuals who were in its care and had received
    Social Security funds as of December 31, 2008 or who left its care during the period
    January 1 through December 31, 2008.

•   Compared and reconciled RPS’ and Sunshine's lists to identify the population of
    SSA beneficiaries who were in Sunshine's care from January 1 through
    December 31, 2008.

•   Reviewed Sunshine’s internal controls over the receipt and disbursement of Social
    Security benefits.

•   Randomly sampled 100 beneficiaries from a population of 1,639 beneficiaries who
    were in Sunshine's care at some time during the period January 1 through
    December 31, 2008.

•   Performed the following tests for the 100 randomly selected beneficiaries.

     Compared and reconciled benefit amounts received according to Sunshine's
      records to benefit amounts paid according to SSA's records.

     Reviewed Sunshine’s accounting records to determine whether benefits were
      properly spent or conserved on the individual's behalf.

     Traced a sample of recorded expenses to source documents and examined the
      underlying documentation for reasonableness and authenticity.

•   Visited and interviewed 10 beneficiaries to determine whether their basic needs
    were being met.




                                           C-1
We determined the data we obtained and analyzed from SSA and Sunshine’s
beneficiary ledgers were sufficiently reliable to meet the objectives of our review. We
performed our fieldwork in Birmingham, Alabama, and St. Petersburg, Florida, between
February and October 2009. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                          C-2
                                                                Appendix D

Sample Results

                            Results and Projections
Total Population of Beneficiaries Served by Sunshine Payee
Corporation from January 1 through December 31, 2008                   1,639
Sample Size                                                             100
                                Variable Projections
Total of Fees Charged to Beneficiaries in Sample                     $26,887

Estimate of Total Fees Charged to Beneficiaries in Population
                                                                    $440,680
Projection—Lower Limit                                              $395,683
Projection—Upper Limit                                              $485,677
Projections are at the 90-percent confidence level.
                  Appendix E

Agency Comments
January 28, 2010
ATLANTA'S REPLY: Signed Draft Report Sunshine Payee Corporation (A-08-09-29106)


To:            Inspector General

From:          Regional Commissioner, Atlanta

Subject:       Sunshine Payee Corporation, a Fee-for-Service Representative Payee for
               the Social Security Administration (A-08-09-29106) - Atlanta Region’s
               Comments

Thank you for the opportunity to review and comment on the subject draft report.
Below you will find our response to the specific recommendations.

The objective of the audit was to determine whether Sunshine Payee Corporation
(Sunshine) had effective safeguards over the receipt and disbursement of Social
Security benefits and ensure Social Security benefits were used and accounted for in
accordance with the Social Security Administration's (SSA) policies and procedures.

The audit identified that Sunshine generally had effective safeguards over the receipt,
disbursement and accounting of Social Security benefits.

Recommendation 1

Work with Sunshine to reconcile its bank statement balances to the beneficiaries'
general ledger balances and resolve any resulting differences.

SSA Comment

We agree. We are working with Sunshine to ensure the payee reconciles the bank
statement balance to the beneficiaries’ general ledger balance and resolve any
remaining differences.

Recommendation 2

Ensure Sunshine secures a bond and/or insurance policy that fully protect beneficiary
funds. If Sunshine cannot obtain a bond that meets Agency requirements, consider
reducing the number of beneficiaries Sunshine can serve or initiate steps to revoke
Sunshine’s authorization to collect fees.




                                              E-1
SSA Comment

We agree. Sunshine is working to secure an insurance contract with sufficient
coverage. Sunshine has located an insurance company willing to provide sufficient
coverage and needed time to secure the insurance contact. If proof of sufficient bond
coverage is not provided within thirty days, we will initiate steps to reduce the number of
beneficiaries Sunshine serves or revoke Sunshine’s authorization to collect fees.

Recommendation 3

Work with SSA Central Office staff to clarify steps the Agency should take when FFS
representative payees do not secure the appropriate bond but continue to collect fees.
That is, SSA’s policy should specify whether FFS representative payees should be
required to refund fees collected when they do not secure the required bond.

SSA Comment

We agree with the intent of the recommendation. Policy GN 00506.400 outlines the
steps needed when a fee for service representative payee does not secure the
appropriate bond but continues to collect fees. It is SSA’s responsibility to monitor a
payee’s performance and ensure continued eligibility to collect a fee. We will issue
operational reminders to our Region IV field sites.

Recommendation 4

Direct Sunshine to modify its collective account title to specifically identify the fiduciary
relationship between it and the beneficiaries.

SSA Comment

We agree with the intent of the recommendation. There are many acceptable titles
of a fiduciary account. We have requested the payee to provide proof that the
collective account is fiduciary. If the payee can provide proof that the collective account
is fiduciary, the title of the account can remain as is. Otherwise, SSA will advise
Sunshine to modify the title of the account to “Sunshine Financial Service Group Inc.,
Representative Payee for Social Security Beneficiaries.”

If you have any questions, please contact Tiffany Schaefer of the RSI Programs Team.
She can be reached at (404) 562-1322.


                                       Paul D. Barnes




                                             E-2
                                Appendix F

Representative Payee Comments
Sunshine Payee Corporation
Audit dated 12/22/2009 - Management Response

Sunshine Payee Corporation (Payee) did not reconcile bank statement balances with its
ledger balances.

        Payee was following SSA policy by using a comingled bank account while maintaining
separate individual ledgers for each beneficiary. Payee acknowledges it would have been
beneficial to have done a monthly reconciliation. The company is currently initiating procedures
using the Bank of America reconciliation program to see that monthly reconciliations are
completed on a timely basis.

         The difference between the bank balance and the Payee account balances is attributable to
old outstanding checks. The $38,974 is an accumulation of outstanding checks over a period of
more than 15 years. Some checks may or may not ever be presented for payment to the bank,
although stale checks do appear from time to time. Therefore Payee must maintain the bank
balances for possible future presentation. Payee will make all reasonable efforts to identify
outstanding checks beginning with the segregation of the excess on internal accounting to
facilitate the process.

       The auditors expressed concern that the lack of reconciliations may have caused SSI
beneficiaries to exceed their allowed maximum savings. This concern is unfounded because
Payee runs a separate report monthly on SSI accounts to insure compliance.

Payee had insufficient Bond Coverage

    Payee has on multiple occasions attempted to get additional bond coverage without success
because in the past we have not had audited financial statements to present to the bonding
companies. Smaller bonds, up to $100,000 such as the one payee currently holds often do not
require audited statements. Payee had engaged the Certified Public Accounting firm of Lewis
Birch & Ricardo LLC, to perform an audit of the years ended December 2008 and 2009. Bond
applications are in currently in process awaiting the audit report. Payee has every reason to
believe that they will be able to secure the required bond once the audit process has been
completed. The bond shall have SSA as an additional insured party.

Payee has an Improper Bank Account Title

       The title on the bank account was changed in response to an SSA audit in December
2007. It is word for word the title that SSA directed Payee to use at that time. If a further title
change is required Payee will do so but respectfully requests that all parties concerned come to
agreement on the exact wording to end this question permanently.
                                                                    Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director

   Jeff Pounds, Audit Manager

Acknowledgments

In addition to those named above:

   Ken Coward, Senior Program Analyst

   Jessica Harmon, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-09-29106.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
